SEMIANNUAL REPORT TO CONGRESS

      October 1, 2010 - March 31, 2011




    Federal Trade Commission
    Office of Inspector General
                Report No. 45
T   he Federal Trade Commission (FTC) is an independent agency of the United States government.
    Established in 1914 by the Federal Trade Commission Act (15 U.S.C. §41-58, as amended). The
FTC has two critical goals: protecting consumers and maintaining competition. The FTC’s mission is
to prevent business practices that are anticompetitive or deceptive or unfair to consumers; to enhance
informed consumer choices and public understanding of the competitive process; and to accomplish
these missions without unduly burdening legitimate business activity.

The FTC’s mission is carried out by three bureaus: the Bureau of Consumer Protection, the Bureau
of Competition, and the Bureau of Economics. Work is aided by oﬃces including the Oﬃce of the
General Counsel, the Oﬃce of Inspector General, the Oﬃce of International Aﬀairs, the Oﬃce of the
Executive Director, and seven regional oﬃces. The FTC is headed by a commission composed of ﬁve
commissioners, nominated by the President and conﬁrmed by the Senate, each serving a seven-year
term.

The FTC seeks to ensure that the nation’s markets are competitive, eﬃcient and free from undue
restrictions. The FTC also seeks to improve the operations of the marketplace by ending unfair and
deceptive practices with emphasis on those practices that might unreasonably restrict or inhibit the
free exercise of informed choice by consumers. The FTC relies on economic analysis to support its law
enforcement eﬀorts and to contribute to the economic policy deliberations of Congress, the Executive
Branch and the public.

Many of the FTC’s resources can be accessed through its Web site www.ftc.gov.




COVER: Historical view of the US capitol building from the FTC Apex building 600 Pennsylvania Avenue N.W.
       Washington DC

ABOVE: Side view of the Federal Trade Commission building 600 Pennsylvania Avenue
Photo above: the “Man Controlling Trade“ statues located on either side of the Federal Trade Commission
building 600 Pennsylvania ave. NW, Washington DC. symbolize the relationship between trade and the govern-
ment. These Sculpture were created by artist Michael Lantz, and completed in 1942
Table of Contents


Introduction and Definitions .....................................................................................1

Audits and Related Activities .....................................................................................3

         Completed Audits..............................................................................................................3

        Audit Resolution and Corrective Actions ...............................................................6

        Audit Activities Planned or In-Progress...................................................................6

Investigative Activities .................................................................................................8

        Investigative Summary .....................................................................................................8

        Investigations Closed ......................................................................................................8

        Matters Referred for Prosecution .............................................................................9

Other Activities ............................................................................................................ 10

        Liaison with Other Agencies ........................................................................................10

        Activities within the Inspector General Community ..........................................10

        Significant Management Decisions ...........................................................................10

        Access to Information ..................................................................................................10

        Review of Legislation ................................................................................................10

Table I: Audit reports with recommendations on corrective action that
have not been completed .............................................................................................11

Table II: Summary of Inspector General Reporting Requirements ................12

Table III: Inspector General issued Reports with Questioned Costs ............13

Table IV: Inspector General Issued Reports with Recommendations that
Funds be put to Better use ..........................................................................................13
Above: the Federal Trade Commission, 600 Pennsylvania Avenue building
features large decorative gates that represent various means of trade including
Columbus’s ships, an 18th Century merchant ship, and a 19th Century clipper
ship in full sail (shown above).
Introduction and Definitions




THE MISSION OF THE OFFICE OF INSPECTOR GENERAL IS TO PROMOTE
ECONOMY, EFFICIENCY, AND EFFECTIVENESS BY DETECTING AND
PREVENTING WASTE, FRAUD, AND ABUSE.



In compliance with the Inspector General Act Amendments of 1988 (5 U.S.C. app.), the
Oﬃce of Inspector General (OIG) was established in 1989, as an independent and objective
organization within the FTC.

Under the Inspector General Act, the OIG is responsible for conducting audits and
investigations relating to the programs and operations of the FTC. Audits are conducted
for the purpose of ﬁnding and preventing fraud, waste and abuse and to promote economy,
eﬃciency and eﬀectiveness within the agency. OIG investigations seek out facts related to
allegations of wrongdoing on the part of FTC employees and individuals or entities having
contracts with or obtaining beneﬁts from the agency.

Individuals who wish to ﬁle a complaint about the business practices of a particular company
or entity, or allegations of identity theft, deceptive advertising practices or consumer fraud
should ﬁle a complaint with the FTC Bureau of Consumer Protection.

Complaints to the OIG from the public or from an FTC employee can be made anonymously.
The identity of an FTC employee who reports waste or wrongdoing to the OIG will be
protected from disclosure consistent with provisions of the Inspector General Act. In
addition, the Inspector General Act and the Whistleblower Protection Act prohibit reprisals
against employees for complaining to or cooperating with the OIG.

The OIG is required by law to prepare a semiannual report summarizing the activities of the
Oﬃce during the immediately preceding six-month period. The report is sent to the FTC
Chairman, the President of the Senate, the Speaker of the House and FTC’s appropriating
and authorizing committees. This dual reporting requirement facilitates and ensures the
independence of the Oﬃce.




                    Semiannual Report to Congress • 1
WE PERFORM THE FOLLOWING SERVICES:



ATTESTATIONS           involve examining, reviewing, or applying agreed-upon procedures
on a subject matter, or an assertion about a subject matter. Attestations can have a broad
range of ﬁnancial or nonﬁnancial objectives as the FTC’s compliance with speciﬁc laws and
regulations, validation of performance against performance measures; or reasonableness of
cost.


PERFORMANCE AUDITS             address the eﬃciency, eﬀectiveness, and economy of the
FTC’s programs, activities, and functions; provide information to responsible parties
to improve public accountability; facilitate oversight and decision making; and initiate
corrective actions as needed.


FINANCIAL AUDITS               provide an independent assessment of whether ﬁnancial
statements are presented fairly in accordance with generally accepted accounting principles.
Reporting on ﬁnancial audits in accordance with Government Auditing Standards also
includes reports on internal control, and compliance with provisions of laws, regulations,
and contracts as they relate to ﬁnancial transactions, systems and processes.


INVESTIGATIONS             are conducted based on alleged or suspected fraud, waste, abuse
or gross mismanagement, employee and contractor misconduct, and criminal and civil
violations of law that have an impact on FTC’s programs and operations. The OIG refers
matters to the U.S. Department of Justice whenever the OIG has reasonable grounds to
believe there has been a violation of federal criminal law. The OIG also identiﬁes fraud
indicators and recommends measures to management to improve the agency’s ability to
protect itself against fraud and other wrongdoing.




                        2 • Semiannual Report to Congress
 Audits and Related Activities
Completed Audits                                              AR 11-002 – Review of FTC FISMA Im-
                                                              plementation – FY 2010
 During this period, we issued three reports; the annu-
 al financial statement audit report, the annual FISMA The Federal Information Security Management Act
 report, and a follow-up review of the FTC purchase of 2002 (FISMA) requires an annual review of federal
 card program.                                                   agency information security programs and practices
                                                                 to determine their eﬀectiveness. The objectives of this
                                                                 review were to evaluate the adequacy of the FTC’s
AR 11-001 – Audit of the FTC                                     information security program and procedures for
 Financial Statements – FY 2010                                  identifying    and protecting Personally Identifiable
                                                                 Information (PII) and other Privacy Act concerns. This
                                                                 information is provided to senior management and
 Federal law requires that the FTC obtain an annual others to enable them to determine the eﬀectiveness of
 independent audit of its financial statements, overall security programs, to ensure the confidentiality
 which the OIG oversees. We contracted with the and integrity of data entrusted to the FTC, and to
 independent public accounting firm of Dembo, Jones,                                  develop strategies/best practices
 Healy, Pennington & Marshall,                                                        for cost eﬀectively improving
 P.C. (DJHPM) under a multiyear                                                       information security. The review
 contract for which the OIG serves                                                    includes evaluating the adequacy
 as the Contracting Oﬃcer’s                                                           of  the FTC’s computer security
 Technical Representative (COTR).                                                     program     and practices for its
 The oversight of the contractor                                                      major   systems.
 ensured that the audit complied
 with      generally       accepted                                                   A critical component of the FISMA
 government auditing standards                                                        information assurance program
 and met contract requirements.                                                       monitoring requirements is
                                                                                      an independent assessment of
 The audit was performed in                                                           program eﬀectiveness by the
 accordance with U.S. generally                                                       Inspector    General (IG) of the
 accepted government auditing                                                         respective   federal agency. This
 standards and OMB audit                                                              assessment    is intended to identify
 guidance. For the fourteenth                                                         weaknesses     in agency programs,
 consecutive year, the FTC                                                            provide     recommendations       for
 received an unqualified opinion,                                                     corrective   actions,  and  monitor
 the highest opinion given by                                                         agency success in maintaining the
                                                                                      security of agency information
 independent auditors. As a result
                                                                                      assets (hardware, software, data,
 of the audit of FTC’s financial                                                      and system availability).
 statement for the year ended
 September 30, 2010, DJHPM                                                             This year’s OIG review found
 found:                               Photo above: FTC Information Technology staff that through the end of FY 2009,
                                      giving a tour of the new FTC data center.        the FTC IT security environment
                                                                                       was characterized as strong and
• the financial statements were
                                                                                       robust, with some deficiencies
 presented fairly, in all material respects, in conformity
                                                                 that were being resolved. In September of 2009, the
 with U.S. generally accepted accounting principles,
                                                                 FTC initiated a long-planned eﬀort to modernize
                                                                 its basic information technology (IT) infrastructure
• no material weaknesses in internal control over
                                                                (General Support System (GSS)) with the award of
 financial reporting (including safeguarding assets)
                                                                 a competitive, performance-based contract for its
 and compliance with laws and regulations, and
                                                                 design, development, and implementation (ITA-1).
                                                                The ITA-1 eﬀort, however, did not proceed as
• no reportable noncompliance with laws and
                                                                 intended. The problems associated with the ITA-1
 regulations tested.
                                                                 implementation were brought to the attention of FTC
                                                                 senior management.

                              Semiannual Report to Congress • 3
    Photo above:   “American Eagles“ One of two limestone reliefs located on the side of
                   The Federal Trade Commission building.
                   Creeated in 1938 by artist Sidney Waugh (1904-1963)
.




                                4 • Semiannual Report to Congress
FTC senior management initiated immediate corrective          3. FMO included policies and guidelines within the
actions intended to resolve security and system               purchase card program that are consistent with the
management concerns. The FY 2011 FISMA report will            Travel and Transportation Reform Act of 1998 (P.L. 105-
evaluate the eﬀectiveness of those corrective actions.        264, §2(a)).

The FTC Privacy Program continues to be strong and            4. FMO developed and instituted an internal audit
robust. FTC has adopted an active approach to reduce          system to conduct a monthly audit of all purchase
the volume of Personally identifiable Information (PII)       charge card transactions in order to detect and prevent
and Sensitive Health Information (SHI) it maintains. FTC      the misuse of the purchase charge card.
PII and SHI practices include maintenance of System of
Records Notices (SORN), Privacy Impact Assessments            5. FMO revised and implemented a training program
(PIA) and privacy notices on public websites. The             that is consistent with the requirements in OMB Circular
SORNs and PIAs were reviewed and are complete and             A-123 Appendix B and Treasury Financial Manual
are published in accordance with OMB guidance.                Volume 1, Part 4, Chapter 4500.

                                                                                 We appreciate that management took
                                                                                 immediate corrective actions on the
AR 11-003 – Follow-
                                                                                 above recommendations.
up Review of the FTC
Purchase Card Program                                                          We      also      provided        additional
                                                                               recommendations              to      further
The audit objective was to follow-up                                           strengthen    or improve    administrative
on recommendations in a previously                                             controls in the program. Specifically,
issued report on purchase cards and                                            we   recommended improvements in
determine if the FTC has implemented                                           the areas  of: tracking required training
appropriate controls in compliance                                             for   card    holders and approving
with OMB and FTC guidance.                                                     oﬃ  cials; reinforcing    the need for card
                                                                               holders to limit the use of convenience
We found that the Federal Trade                                                checks for payments; and establishing
Commission had implemented all open                                            criteria for purchasing certain overseas
recommendations from the March                                                 travel   services. The FTC has not
2007 report. The FTC has generally                                             established    a formal system to track
implemented eﬀective internal controls                                         the   training    of approving oﬃcials
to deter fraud, waste and abuse in                                             or  purchase     card   holders. The FTC
the program. The prior report AR 07-                                           issued   a memo      on  February 16, 2007,
002, “Review of the FTC Purchase                                               that requires   all purchase   card holders
Charge Card Program,” March 2007                                               and   approving      oﬃ  cials  to complete
identified    five                     Photo above: Supplies like the toner
                    recommendations cartridges shown above are purchased using the  GSA’s    SmartPay      Purchase    Card
for     management      consideration. the Government purchase card.           training    on   an    annual    basis. This
Management         implemented the                                             requirement         is    more     stringent
                                                                               than the three year requirement
following recommendations:
                                                             specified in OMB Circular A-123, Appendix B.
1. The Financial Management Oﬃce (FMO) updated,
                                                          We recommended that:
documented, and implemented risk management
controls on the FTC purchase card program.                1. The agency coordinator establish a system to track
                                                          required training and the one year refresher training for
2. FMO reviewed all Merchant Category Codes (MCCs) card holders or approving oﬃcials in accordance with
currently in use and restricted the use of those that are established FTC policy; the agency coordinator maintain
not appropriate.                                          copies of all training certificates; and the Administrative
                                                          Manual be updated with the training policy issued in
                                                          February 2007.




                                   Semiannual Report to Congress • 5
2. The agency should minimize the use of convenience      statements of the Federal Trade Commission for the
checks whenever possible.                                 fiscal year ending September 30, 2011. The audit will
                                                          also test the internal controls over financial reporting
3. The purchase of certain overseas travel services       and test compliance with selected laws and regulations.
should be better defined and controlled.                  The audited financial statements are included in the
                                                          financial section of the agency’s Performance and
                                                          Accountability Report to be issued in November 2011.

Audit Resolution and                                                         •   Review    of    FTC     FISMA
Corrective Actions                                                            Implementation for FY 2011

                                                                              The Federal Information Security
Audit Resolution                                                              Management Act of 2002 (FISMA)
                                                                              requires an annual evaluation of
As of the end of this reporting                                               each agency’s information security
period,     all      OIG    audit                                             program and practices to determine
recommendations for reports                                                   their eﬀectiveness. The evaluation
issued in prior periods have been                                             shall be performed by the Inspec-
resolved. That is, management and                                             tor General or by an independent
the OIG have reached agreement                                                external auditor, as determined by
in what actions need to be taken.                                             the Inspector General.

Corrective Actions in                                                        To assist us in conducting this
                                                                             review, we hired an independent
Progress                                                  consultant to perform this work. The OIG acts as the
As of the end of this reporting period, FTC management    COTR and performs oversight during the execution
had not completed action on measures taken to             of this contract. The review includes evaluating the
implement all of the OIG findings and recommendations.    adequacy of the FTC’s computer security program
Table 1 shows all recommendations open 180 days or        and practices for its major systems. This year, the
more on which corrective actions are still in progress.   review will focus on the FTC’s general support system
These recommendations are intended to improve             infrastructure.
management’s oversight and controls and minimize the
risk of misappropriations of assets and misstatements     The OIG continues its work on:
of assets and misstatement in FTC’s accounts and
financial statements. We do not consider these issues       • Review of Warehouse Operations
to be significant deficiencies or material weaknesses.
Nonetheless, we believe they warrant management’s         The Oﬃce of Inspector General is performing a limited
attention and action.                                     scope audit on the economy and eﬃciency of the FTC
                                                          warehouse located in Landover, MD. The objective of
                                                          the audit will focus on the cost eﬀectiveness of main-
Audit Activities Planned or In-                           taining the current warehouse operation. The audit
Progress                                                  will review the current cost of maintaining the facility
                                                          and compare that with alternative supply approaches
The OIG plans the following audit related activities      such as just-in-time inventory delivery, use of economic
during the second half of FY 2011:                        order quantities, and the potential for utilizing other
                                                          federal agency facilities.
 • Audit of the FTC Financial Statements for FY 2011
                                                            • Review of ITA-1 Contract
The annual financial statement audit is required
under the Accountability of Tax Dollars Act of 2002.      The Oﬃce of Inspector General initiated this evaluation
We contract out this audit to an independent public       of the service contract for the ITA-1 data center because
accountant to perform this work. The OIG serves as the    it was an area identified as problematic in the FY 2010
Contracting Oﬃcer’s Technical Representative (COTR)       FISMA report and because of the significance of this
and provides oversight on the contract. The purpose       contract for IT Services at FTC. Our overall objective is
of the audit is to express an opinion on the financial    to determine whether the contractor satisfactorily

                                6 • Semiannual Report to Congress
performed contract requirements. As part of this              • Other Potential Reviews
assessment, a sub-objective is to evaluate whether FTC
planned and managed this service contract to ensure that    During the upcoming year we will also conduct research
the contractor performed in accordance with contract        on the following program functions to determine the
requirements.                                               need for further audit work:

                                                             - Review of inventory controls over accountable
                                                            property
                                                             - Review of case management




Aloyisus Leon Higginbotham, Jr.
(February 25, 1928 - December 14, 1998)


Who was the first African American Commissioner?

In 1962, President John F. Kennedy named Aloyisus Leon
Higginbotham to head the Federal Trade Commission. He was
FTC’s first African American Commissioner and its youngest
as well. In 1964, he was appointed by President Lyndon
Johnson to serve on the U.S. District Court for the Eastern
District of Pennsylvania, the youngest African American to
serve as a federal judge. In 1977, President Jimmy Carter
appointed Higginbotham to serve on the U.S. Third-Circuit
Court of Appeals, where he would become chief judge of the
court in 1989.

After serving as a federal judge for 29 years, Higginbotham
retired in 1993 and soon became an outspoken critic of
conservative social policies and the U.S. Supreme Court justices
that supported them. He devoted himself to working on four
social issues: racial and gender equality, religious tolerance,
the eradication of poverty, and the protection of children. In
1995, Higginbotham was awarded the Presidential Medal of
Freedom, the highest civilian honor in the U.S. He died on
December 14, 1998.




                                  Semiannual Report to Congress • 7
     Investigative Activities


The Inspector General is authorized by the IG Act          In addition to the complaints described above, the OIG
to receive and investigate allegations of employee         received more than 280 complaints from individuals
misconduct as well as fraud, waste and abuse occurring     who reported fraudulent misuse of the name of the
within FTC programs and operations. Matters of             FTC and/or impersonations of the FTC staﬀ as part of
possible wrongdoing are referred to the OIG in the form    a widespread scam. These consumer complaints were
of allegations or complaints from a variety of sources,    tracked by our oﬃce in our ongoing work with other
including FTC employees, other government agencies         federal law enforcement organizations.       However
and the general public. Reported incidents of possible     the volume of these complaints is not included in the
fraud, waste and abuse can give rise to administrative,    statistical information above.
civil or criminal investigations.

                                                                             Investigations Closed
Investigative Summary
                                                                             During this reporting period, the
                                                                             OIG both opened and ultimately
During this reporting period, the                                            closed an investigation involving 11
OIG received 51 consumer and other                                           individuals employed by either the
inquiries and reports of possible                                            FTC or contractors performing under
wrongdoing. Of the 51 complaints,                                            an FTC contract. The case involved
32 involved issues that fall under                                           management’s initial allegations that
the jurisdiction of FTC program                                              the FTC’s supply clerk responsible for
components (e.g., identity theft,                                            ordering all oﬃce supplies for the agency,
credit repair, etc.). These matters                                          was making unauthorized purchases
were referred to the appropriate FTC                                         and misusing the agency’s Federal
component for disposition.                                                   Express account number for personal
                                                                             use. We immediately investigated the
Of the remaining complaints, the                                             allegations, obtained incriminating
OIG opened one new investigation                                             evidence and one week following the
and 17 complaints were closed                                               referral to us, we interviewed the subject
with no further OIG action. One complaint to the OIG       with assistance from Department of Homeland Security,
was referred to another federal or state agency with       Federal Protective Service. Later that day, we informed
appropriate jurisdiction.                                  management of the available evidence and management
                                                           immediately placed the employee on administrative
                                                           leave, pending further OIG investigation.


 Following is a summary of the OIG’s investigative activities for the six-month period
 ending March 31, 2011:




                             Cases pending as of 9/30/10     6
                                       PLUS: New Cases       1
                                      Less: Cases Closed    (1)
                            Cases Pending as of 03/31/11     6




                                   8 • Semiannual Report to Congress
 Further investigation revealed the employee’s                FTC employee (supply clerk) and eight individuals
 theft of Government property totaled in excess               employed by three FTC contractors have been
 of $218,000 in unauthorized purchases. The theft             removed. During this reporting period, we referred
 started approximately two months after he started            evidence of misconduct (i.e., receipt of unauthorized
 as the supply clerk and was undetected from April            items or Federal Express account misuse) to agency
 2009 until December 2010, when the employee                  management relating to an additional two FTC
 was placed on administrative leave. Evidence                 employees. We are working with management as
 showed that the employee bought unauthorized                 it proceeds on administrative action respecting
 laptops, televisions, DVD players, Apple iPods, cell         the two additional FTC employees. Although the
 phones and other electronic devices. He retained             investigation with respect to these 11 individuals is
for personal use a small number of these electronics          closed, related investigations remain ongoing.
and sold most of them for cash at a price below the
retail price. The OIG referred the case to the District
of Columbia United States Attorney for prosecution.           Matters Referred for Prosecution
Two weeks after the close of this reporting period, the
employee entered a guilty plea and he is currently            During this reporting period the OIG referred one
awaiting sentencing. Following entry of the guilty            matter, described in the preceding section, to the
plea, agency management initiated administrative              Department of Justice (DOJ) for consideration of
disciplinary action to terminate the defendant’s              potential criminal action. The United States Attorney
employment.                                                   for the District of Columbia prosecuted the FTC
                                                              employee during this reporting period. In the period
Amid our investigation into the activities of the             following the close of the current reporting period
supply clerk, we also obtained evidence that other            but prior to transmittal of this report to Congress, the
FTC employees and contractor employees who work               FTC employee pled guilty. Sentencing is scheduled
at the FTC purchased the unauthorized merchandise             for the following reporting period.
from the supply clerk. We also uncovered evidence
that FTC employees and contractor employees had               A matter referred to DOJ during a previous reporting
misused the agency’s Federal Express account                  period remains pending at DOJ (Oﬃce of Public
number (for personal shipments). To date, one                 Integrity), with no final action to date.



Janet Dempsey Steiger
(June 10, 1939- April 3, 2004)

Who was the first female chairman of the Federal Trade
Commission?

Janet Steiger graduated in 1963 from Lawrence University in
Wisconsin and her postgraduate study at the University of Reading
in England and at the University of Wisconsin-Madison. She was a
Fulbright scholar, a Woodrow Wilson scholar, and a member of the
Lawrence board of trustees
(1986-89). She was a member of the Republican party and served as
Chairman of the Postal Rate Commission from 1981 to 1989.

Former President George H.W Bush appointed Steiger to head the
FTC where she was FTC’s first female chairman from 1989 to 1995. In
1992, under Steiger’s leadership, the FTC and the Justice Department
issued guidelines for analysis of horizontal mergers and statements
on antitrust policy in healthcare and licensing intellectual property.
She also led the FTC’s battle against tobacco companies’ use of
cartoon characters like Joe Camel to appeal to young people, took
on credit repair clinics and began eﬀorts that evolved into the “do
not call” list.




                                 Semiannual Report to Congress • 9
   Other Activities
Liaison with Other Agencies
In conducting criminal investigations, the OIG has             In addition, our Lead Investigator is actively participating
worked with other law enforcement agencies including           on a Department of Justice (DOJ) led multi-agency
Department of Homeland Security Federal Protective             task force addressing crimes related to lottery and
Service, United States Postal Service, Federal Bureau of       sweepstakes scams targeting the elderly. The task
Investigation, U.S. Postal Inspection Service, U.S. Secret     force is actively investigating these crimes and moving
Service, U.S. Marshals Service, Internal Revenue Service,      toward prosecution of those found responsible. This
U.S. Capitol Police, as well as state agencies and local law   task force receives consumer complaints from many
enforcement agencies.                                          sources, including Lloyds of London, the Department of
                                                               the Treasury, the FTC Consumer Response Center, the
Activities within the Inspector                                general public and other sources.
General Community
                                                               Significant Management Decisions
The FTC IG is an active participant in the Council of the
Inspectors General on Integrity and Eﬃciency (CIGIE), a        Section 5(a)(12) of the Inspector General Act requires
council of inspectors general that promotes collaboration      that if the IG disagrees with any significant management
on integrity, economy, and eﬃciency issues that transcend      decision, such disagreement must be reported in the
individual agencies. The IG is also the vice-chair of the      semiannual report to Congress. Further, Section 5(a)(11)
Audit Committee of the CIGIE.                                  of the Act requires that any decision by management
                                                               to change its response to a significant resolved audit
The FTC Inspector General is also the chair of the audit       finding must also be disclosed in the semiannual report.
committee overseeing the audit of the Department of            For this reporting period there were no significant
Defense Inspector General’s financial statements. In this      final management decisions made with which the OIG
capacity, the IG along with two other senior government        disagreed, and management did not revise any earlier
oﬃcials provide oversight on the DOD IG’s financial            decisions on OIG audit recommendations.
statement audit.

The OIG Audit Manager participates regularly in the            Access to Information
monthly meeting of the Financial Statement Audit
Network, and meetings of the Federal Audit Executive           The IG is to be provided with ready access to all agency
Committee Information Technology committee.                    records, information, or assistance when conducting
                                                               an investigation or audit. Section 6(b)(2) of the IG Act
Our IG Counsel participates regularly in the monthly           requires the IG to report to the agency head, without
meeting of the Council of Counsel to the Inspectors            delay, if the IG believes that access to required information,
General (CCIG), as well as contributes to the legal            records or assistance has been unreasonably refused, or
discourse within that Council on matters that are germane      otherwise has not been provided. A summary of each
to the entire IG community.                                    report submitted to the agency head in compliance with
                                                               Section 6(b)(2) must be provided in the semiannual
Our Lead Investigator is actively participating in two         report in accordance with Section 5(a)(5) of the Act.
OIG-community working groups that are re-designing             During this reporting period, the OIG did not encounter
training programs for investigators engaged in                 any problems in obtaining assistance or access to agency
undercover operations and for advanced interviewing            records. Consequently, no report was issued by the IG to
techniques. The training programs are available through        the agency head pursuant to Section 6(b)(2) of the IG Act.
the Inspector General Criminal Investigator Academy in
conjunction with the Federal Law Enforcement Training
Center.                                                        Review of Legislation
Our Lead Investigator also participates in the Metro
                                                               Section 4(a)(2) of the IG Act authorizes the IG to review and
Area Fraud Task Force (MAFTF) headed by the Secret             comment on proposed legislation or regulations relating to the
Service. This task force is made up of law enforcement         agency or, upon request, aﬀecting the operations of the OIG.
professionals in the Washington, DC metro area who             During this reporting period, the OIG reviewed no legislation.
work together to identify suspects and solve various
crimes.
                                    10 • Semiannual Report to Congress
Table I: Audit reports with recommendations on corrective action
that have not been completed


Subject                     OIG Recommended the following:



                            o HRMO to assess need for oﬀering training for new timekeepers
AR 08-002
Administration of Leave
                            o HRMO to revise FTC Administrative Manual to reflect updated
September 2008
                              OPM regulations on military leave




                            o FMO to develop training program specifically for FTC staﬀ assigned
AR 09-002                     COTR duties managing contracts with expert witness and consultants
COTR Oversight of Sole
Source Contracts            o FMO work with the HRMO to define FTC COTR duties and include those
September 2009                duties in COTR staﬀ performance plans (Note that the FMO and BCP
                              partially agreed with this recommendation)



                            The following recommendations are issues identified in the management
                            letter that were considered minor in nature and did not rise to the level
                            of significant control weaknesses

                            o   FMO to improve Oracle reporting function

                            o   FMO to improve documentation of procurement with Service Disabled
AR 10-001A                      Veteran-Owned Small Business (SDVOSB)
Management Letter FY 2009
May 2010                    o   FMO to improve review process for uncollectable redress judgments

                            o   FMO to improvement procedures for review of controls over accounts
                                payable to determine unrecorded liabilities

                            o   FMO to improve procedures to close out contracts




                            Semiannual Report to Congress • 11
Table II: Summary of Inspector General Reporting
Requirements
Ig Act Reference   Reporting Requirement                                                 Page(s)

Section 4(a)(2)    Review of legislation and regulations                                   10

Section 5(a)(l)    Significant problems, abuses and deficiencies                          N/A

                   Recommendations with respect to significant problems, abuses and
Section 5(a)(2)                                                                           N/A
                   deficiencies

                   Prior significant recommendations on which corrective actions have
Section 5(a)(3)                                                                           N/A
                   not been made

Section 5(a)(4)    Matters referred to prosecutive authorities                             9

Section 5(a)(5)    Summary of instances where information was refused                     N/A

                   List of audit reports by subject matter, showing dollar value of
Section 5(a)(6)                                                                            13
                   questioned costs and funds put to better use

Section 5(a)(7)    Summary of each particularly significant report                         3-6

                          ical tables showing number of reports and dollar value of
                   Statistical
Section 5(a)(8)                                                                            13
                   questione costs
                   questioned
                   Statistical tables showing number of reports and dollar value of
Section 5(a)(9)                                                                            13
                   recommendations that funds be put to better use
                   Summary of each audit issued before this reporting period for which
Section 5(a)(10)   no management decision was made by the end of the reporting            N/A
                   period

Section 5(a)(11)   Significant revised management decisions                                10

                   Significant management decisions with which the inspector general
Section 5(a)(12)                                                                           10
                   disagrees




                              12 • Semiannual Report to Congress
Table III: Inspector General issued Reports with Questioned Costs
                                                                                      Dollar Value
                                                                             Questioned      Unsupported
                                                               Number
                                                                               Costs            Costs

     For which no management decision has been made by
A.                                                                0               0               0
     the commencement of the reporting period

B.   Which were issued during the reporting period                0               0               0

     Subtotals (A + B)                                            0               0               0

     For which a management decision was made during the
C.                                                                0               0               0
     reporting period

     (i) dollar value of disallowed costs                         0               0               0

     (ii) dollar value of the cost not disallowed                 0               0               0

     For which no management decision was made by the end
D.                                                                0               0               0
     of the reporting period

     Reports for which no management decision was made
E.                                                                0               0               0
     within six months of issuance



Table IV: Inspector General Issued Reports with Recommendations
that Funds be put to Better use
                                                                                                  Dollar
                                                                                      Number
                                                                                                  Value

     For which no management decision has been made by the commencement of
A.                                                                                       0            0
     the reporting period

B.   Which were issued during this reporting period                                      0            0

C.   For which a management decision was made during the reporting period                0            0


     (i) dollar value of recommendations that were agreed to by management               0            0

     - based on proposed management actions                                              0            0
     - based on proposed legislative action                                              0            0

     (ii) dollar value of recommendations that were not agreed to by management          0            0

     For which no management decision has been made by the end of the
D.                                                                                       0            0
     reporting period

     Reports for which no management decision was made within six months of
E.                                                                                       0            0
     issuance




                    Semiannual Report to Congress • 13
14 • Semiannual Report to Congress
This Page Left Intentionally Blank
